TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The 2009 Offshore Voluntary Disclosure
                  Initiative Increased Taxpayer Compliance,
                     but Some Improvements Are Needed



                                      September 21, 2011

                              Reference Number: 2011-30-118




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


THE 2009 OFFSHORE VOLUNTARY                          Our review of 60 closed voluntary disclosure
DISCLOSURE INITIATIVE INCREASED                      cases showed that 18 cases had no evidence of
TAXPAYER COMPLIANCE, BUT SOME                        the taxpayers reconciling the unreported income
IMPROVEMENTS ARE NEEDED                              in their offshore accounts to their amended or
                                                     newly filed delinquent tax returns. In 28 cases,
                                                     information from the taxpayers’ financial
Highlights                                           accounts and promoters either was not captured
                                                     or was incorrectly transcribed on the data
                                                     collection system used for current and
Final Report issued on                               subsequent data mining efforts. In 31 cases,
September 21, 2011                                   voluntary disclosure agreements were not
                                                     printed on IRS watermarked paper or initialed by
Highlights of Reference Number: 2011-30-118          revenue agents on each page to ensure no
to the Internal Revenue Service Deputy               alterations to the original document were made
Commissioner for Services and Enforcement.           by taxpayers.
IMPACT ON TAXPAYERS                                  WHAT TIGTA RECOMMENDED
Taxpayers with undisclosed foreign accounts or       TIGTA recommended that the Commissioner,
assets who do not submit a voluntary disclosure      Large Business and International Division,
run the risk of detection by the Internal Revenue    implement a requirement for taxpayers to
Service (IRS). If caught, these taxpayers face       provide a detailed reconciliation of unreported
the imposition of substantial penalties, including   income. The Commissioner, Large Business
the fraud and foreign information return             and International Division, and the
penalties, as well as an increased risk of           Commissioner, Small Business/Self-Employed
criminal prosecution. By making an offshore          Division, should develop a quality review
voluntary disclosure, taxpayers can become           process to ensure all data relating to voluntary
compliant, avoid substantial civil penalties, and    disclosures are properly transcribed for future
generally eliminate the risk of criminal             data mining and require revenue agents to initial
prosecution.                                         each page of the voluntary disclosure
WHY TIGTA DID THE AUDIT                              agreement before submitting it to taxpayers for
                                                     their signature.
This audit was initiated to determine whether the
IRS’s voluntary disclosure practices were            In their response to the report, IRS management
effective, especially with the high volume of        agreed with two of the three recommendations.
cases received, and to determine whether all         Management stated that a reconciliation of all
cases have been appropriately assigned and           unreported taxpayer income from offshore
worked. The audit is included in our Fiscal          accounts is already a requirement of the
Year 2011 Annual Audit Plan and addresses the        2011 Offshore Voluntary Disclosure Initiative.
major management challenge of Globalization.         In addition, management plans to implement
                                                     procedures to conduct a 100 percent review of
WHAT TIGTA FOUND                                     inputs to the E-Trak Offshore Voluntary
                                                     Disclosure Program system. However,
The IRS’s voluntary disclosure practices were        management disagreed with our
effective, and cases were being appropriately        recommendation to require revenue agents to
assigned and verified even with the unusually        initial each page of the voluntary disclosure
high volume of disclosure requests received and      agreement before submitting it to taxpayers for
accepted. However, some improvements are             their signature.
needed.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 21, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The 2009 Offshore Voluntary Disclosure
                              Initiative Increased Taxpayer Compliance, but Some Improvements
                              Are Needed (Audit # 201130007)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) voluntary disclosure practices were effective, especially with the high volume of
 cases received, and to determine whether all cases have been appropriately assigned and worked.
 This audit is included in our Fiscal Year 2011 Annual Audit Plan and addresses the major
 management challenge of Globalization.
 Management’s complete response to the draft report is included as Appendix VIII.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                          The 2009 Offshore Voluntary Disclosure Initiative Increased
                          Taxpayer Compliance, but Some Improvements Are Needed




                                               Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Obstacles Were Overcome to Meet the Challenges of
          the 2009 Offshore Voluntary Disclosure Initiative ....................................... Page 4
          A Majority of Tax Practitioners Participating in the
          2009 Offshore Voluntary Disclosure Initiative Believed
          Taxpayers Were Treated in a Fair and Consistent Manner........................... Page 8
          Additional Oversight Is Needed to Ensure Information
          Obtained From Voluntary Disclosures Is Accurate
          and Complete ................................................................................................ Page 9
                     Recommendations 1 and 2: .............................................. Page 12

                     Recommendation 3: .................................................................. Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Results of the Survey of Tax Practitioners .......................... Page 18
          Appendix V – Offshore Voluntary Disclosure Letter ................................... Page 24
          Appendix VI – 2009 Offshore Voluntary Disclosure Initiative Steps .......... Page 27
          Appendix VII – Revenue Agent Voluntary Disclosure Verification
          Activities ....................................................................................................... Page 28
          Appendix VIII – Management’s Response to the Draft Report ................... Page 29
        The 2009 Offshore Voluntary Disclosure Initiative Increased
        Taxpayer Compliance, but Some Improvements Are Needed




                      Abbreviations

CI              Criminal Investigation
ERCS            Examination Return Control System
FY              Fiscal Year
IRS             Internal Revenue Service
LB&I            Large Business and International
OECD            Organisation for Economic Cooperation and Development
OVDI            Offshore Voluntary Disclosure Initiative
PFIC            Passive Foreign Investment Company
SB/SE           Small Business/Self-Employed
U.S.            United States
VDP             Voluntary Disclosure Practice
                      The 2009 Offshore Voluntary Disclosure Initiative Increased
                      Taxpayer Compliance, but Some Improvements Are Needed




                                              Background

All United States (U.S.) citizens and resident aliens are
required to report and pay taxes on their worldwide
income. Taxpayers who intentionally fail to report                By making a voluntary
                                                                disclosure, taxpayers can
income earned on bank or financial accounts or                generally eliminate the risk of
undisclosed assets on their tax returns face significant          criminal prosecution.
penalties and possible criminal prosecution if
discovered by the Internal Revenue Service (IRS).
However, noncompliant taxpayers with unreported accounts or assets can become compliant
again by voluntarily disclosing this information to the IRS and paying any taxes due.
The IRS has had a Voluntary Disclosure Practice (VDP) for many years. By making a voluntary
disclosure, taxpayers can generally eliminate the risk of criminal prosecution. A voluntary
disclosure occurs when communications between the taxpayer and the IRS’s Criminal
Investigation (CI) are truthful, timely,1 and complete by the taxpayer:
    •    Showing a willingness to cooperate (and does in fact cooperate) with the IRS in
         determining his or her correct tax liability.
    •    Making a good faith arrangement with the IRS to pay, in full, the tax, interest, and any
         penalties determined by the IRS to be applicable.
On March 26, 2009, the IRS announced the 2009 Offshore Voluntary Disclosure Initiative
(hereafter referred to as the OVDI or the Initiative)2 that encouraged taxpayers with hidden
offshore assets and income to come back into the tax system using the IRS’s VDP. The
2009 OVDI offered a uniform penalty structure for taxpayers who made a voluntary disclosure
and ensured that they received consistent treatment. The 2009 OVDI provides the opportunity to
calculate, with a reasonable degree of certainty, the total cost of resolving all outstanding
offshore tax issues related to the undisclosed foreign bank and financial accounts and assets.
Taxpayers with undisclosed foreign accounts and assets who do not submit a voluntary
disclosure run the risk of detection by the IRS. If caught, these taxpayers face the imposition of

1
  A disclosure is considered timely if it is received before: 1) the IRS has initiated a civil examination or criminal
investigation of the taxpayer or has notified the taxpayer that it intends to commence such an examination or
investigation; 2) the IRS has received information from a third party (e.g., informant, other government agency, or
the media) alerting the IRS to the specific taxpayer’s noncompliance; 3) the IRS has initiated a civil examination or
criminal investigation that is directly related to the specific liability of the taxpayer; or 4) the IRS has acquired
information directly related to specific liability of the taxpayer from a criminal enforcement action (e.g., search
warrant or grand jury subpoena).
2
  Appendix VI has a detailed description of the 2009 OVDI steps.
                                                                                                               Page 1
                                                         The 2009 Offshore Voluntary Disclosure Initiative Increased
                                                         Taxpayer Compliance, but Some Improvements Are Needed



substantial penalties, including the fraud and foreign information return penalties, as well as an
increased risk of criminal prosecution. As a result, the number of voluntary disclosures has
increased due to the 2009 OVDI as well as recent IRS enforcement actions in the offshore area.
Figure 1 shows the total number of all voluntary disclosures received by the IRS’s CI for Fiscal
Years (FY) 2008 to 2011 (through May 2011).
                                                      Figure 1: Total Voluntary Disclosure Requests Received
                                                           by CI for FYs 2008 to 2011 (Through May 2011)

                                                     12000
            Voluntary Disclosure Requests Received




                                                                                          10,269
                                                     10000


                                                      8000
                                                                             6,977

                                                      6000


                                                      4000


                                                      2000                                              1,612

                                                                 95
                                                         0
                                                               FY 2008      FY 2009      FY 2010   FY 2011 (Through 
                                                                                                         May)

       Source: Our analysis of an extract from the Criminal Investigation Management Information System
       of voluntary disclosures received by the IRS CI for FYs 2008 through 2010, and information
       provided by the IRS on the number of voluntary disclosures received by CI through May 2011.

Taxpayers who filed voluntary disclosure requests that were accepted by the IRS between
March 23 and October 15, 2009, received a reduced penalty framework. This framework
required taxpayers to pay back taxes, interest, and either an accuracy-related3 or
delinquency-related penalty4 on up to 6 years (if applicable) of unreported income, including a
miscellaneous offshore penalty equal to 20 percent of the amount in the foreign bank accounts in
the year with the highest aggregate account or asset value.

3
  Internal Revenue Code Section 6662 (2011) provides for an accuracy-related penalty that is generally equal to
20 percent of the portion of the underpayment attributable to negligence, substantial understatement, substantial
valuation misstatement, or any undisclosed foreign asset understatement.
4
  Internal Revenue Code Section 6651 (2011) provides for a delinquency penalty for failure to file or pay tax by the
due date of the return.
                                                                                                                       Page 2
                     The 2009 Offshore Voluntary Disclosure Initiative Increased
                     Taxpayer Compliance, but Some Improvements Are Needed



On February 8, 2011, the IRS announced the 2011 OVDI was available to taxpayers until
August 31, 2011. However, this OVDI was different than the 2009 OVDI in that it required
taxpayers to pay back taxes, interest, and either an accuracy-related or delinquency-related
penalty on up to 8 years (if applicable) of unreported income instead of 6 years. In addition, the
miscellaneous offshore penalty was also raised from 20 to 25 percent of the amount in the
foreign bank accounts in the year with the highest aggregate account balance covering the
Tax Years 2003 to 2010 time period. However, some taxpayers were eligible for a reduced rate
of 12.5 percent for those offshore accounts or assets that did not surpass $75,000 in any calendar
year covered by the 2011 Initiative.
The Organisation for Economic Cooperation and Development (OECD),5 in a fairly recent
report, made the point of the inherent benefit of an offshore voluntary disclosure program for
governments.
        Offshore voluntary compliance programmes offer the opportunity to maximize the
        benefits of improvements in transparency and exchange of information for tax purposes,
        to increase short-term tax revenues and improve medium-term tax compliance. To
        succeed, they need to tread a fine line between encouraging non-compliant taxpayers to
        permanently improve their compliance (a balancing act in itself) and retaining the
        support and compliance of the vast majority of taxpayers who are already compliant. To
        do this, they need to form part of wider voluntary compliance and enforcement
        strategies.6
This review was performed at the IRS Large Business and International (LB&I) Division
Headquarters in Washington, D.C., in the Office of the Deputy Commissioner (International),
and the IRS Campuses7 in Covington, Kentucky, and Memphis, Tennessee, during the period
November 2010 through May 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.
Detailed information on our audit objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.

5
  The OECD is a unique forum where OECD and Non-OECD governments work together to address the economic,
social, and environmental challenges of globalization. The OECD member countries are: Australia, Austria,
Belgium, Canada, Chile, the Czech Republic, Denmark, Finland, France, Germany, Greece, Hungary, Iceland,
Ireland, Italy, Japan, Korea, Luxembourg, Mexico, the Netherlands, New Zealand, Norway, Poland, Portugal, the
Slovak Republic, Slovenia, Spain, Sweden, Switzerland, Turkey, the United Kingdom, and the United States. The
Commission of the European Communities takes part in the work of the OECD.
6
  Organisation for Economic Cooperation and Development, Offshore Voluntary Disclosure: Comparative Analysis,
Guidance and Policy Advice (September 2010).
7
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 3
                     The 2009 Offshore Voluntary Disclosure Initiative Increased
                     Taxpayer Compliance, but Some Improvements Are Needed




                                     Results of Review

The 2009 OVDI was an unprecedented effort within the IRS that required the combined
resources and coordinated efforts of CI, the LB&I and Small Business/Self-Employed (SB/SE)
Divisions, and the Office of Chief Counsel. The IRS’s voluntary disclosure practices were
effective and cases were being appropriately assigned and verified even with the unusually high
volume of disclosure requests received. However, some improvements are needed to ensure
continued taxpayer compliance among those accepted into the OVDI and that information
gathered is sufficient and accurate for future data mining efforts for trending noncompliance.

Obstacles Were Overcome to Meet the Challenges of the
2009 Offshore Voluntary Disclosure Initiative

CI efficiently worked its voluntary disclosure requests inventory
To its credit, the IRS was able to overcome many of the obstacles associated with the
2009 OVDI. From an extract provided by CI, we selected and reviewed a random sample of
104 cases8 from a universe of 14,908 voluntary disclosure requests closed in FY 2010.9 We
found that despite some minor documentation problems, all requests in our sample were properly
evaluated and accepted by CI.
When the 2009 OVDI began, the IRS had originally planned for receiving approximately
1,000 voluntary disclosure requests. This estimate was based on a similar IRS effort, the
Offshore Voluntary Compliance Initiative conducted in Calendar Year 2003, that had received
disclosure requests from approximately 1,500 taxpayers. According to the First Quarter 2010 CI
Business Performance Review, “The period to submit disclosures to qualify for the reduced
penalty was extended from September 23 to October 15 [2009]. Criminal Investigation received
in excess of 14,700 disclosures [voluntary disclosure requests], the majority of which (almost
9,900) were received during the extension period.” Figure 2 shows the number of voluntary
disclosure requests received during the 2009 OVDI by month.




8
  Our initial sample was for 106 voluntary disclosure requests closed by CI in FY 2010. However, CI was only able
to provide us with 104 closed cases.
9
  This included voluntary disclosure requests from the 2009 OVDI, as well as other voluntary disclosure requests
closed in FY 2010.
                                                                                                         Page 4
                                    The 2009 Offshore Voluntary Disclosure Initiative Increased
                                    Taxpayer Compliance, but Some Improvements Are Needed



                                              Figure 2: Voluntary Disclosure Requests
                                              Received by Month During the 2009 OVDI


                               October                                                                                  8,245
                                                   511
                             September                                             4,011

                                                         1,015
        Calendar Year 2009




                                August

                                   July                  687

                                  June             544

                                  May          275

                                  April       112

                                March         33
                                              65

                                          0        1,000       2,000   3,000   4,000   5,000   6,000    7,000   8,000     9,000

                                                          2009 OVDI       Other Voluntary Disclosures

                                                                       Type of Disclosure

     Source: Our analysis of an extract from the Criminal Investigation Management Information System of
     voluntary disclosures received by CI from March through October 2009.

In addition, according to the IRS, of the 14,922 offshore voluntary disclosure requests received
during the 2009 OVDI, more than 10,000 were incomplete as of December 1, 2009. Letters were
sent to the affected taxpayers requesting that they provide additional information within
45 calendar days.
Internal Revenue Manual Section 9.5.11.9.7 requires that special agents10 evaluate each
voluntary disclosure request to determine if the information provided by the taxpayer is truthful
and complete and make a recommendation to the special agent in charge11 as to whether or not
the taxpayer has met all voluntary disclosure practice criteria. To timely evaluate the unexpected
number of voluntary disclosure requests, CI took the following steps:
     1) Assigned additional special agents to the evaluation process.


10
   A special agent is a law enforcement employee who investigates potential criminal violations of the Internal
Revenue laws and related financial crimes.
11
   A special agent in charge is responsible for directing, monitoring, and coordinating the criminal investigation
activities of special agents within their assigned office’s area of responsibility.
                                                                                                                                Page 5
                     The 2009 Offshore Voluntary Disclosure Initiative Increased
                     Taxpayer Compliance, but Some Improvements Are Needed



     2) Streamlined its processing procedures by eliminating the mandatory taxpayer interviews
        and replacing them with the optional offshore voluntary disclosure letter.12 This should
        significantly reduce the number of voluntary disclosures requiring face-to-face interviews
        or personal contact.
     3) Reduced some case documentation requirements.
     4) Secured major case funding in the first quarter of FY 2010 to enable CI to scan and
        electronically search VDP documents for patterns relative to financial institutions,
        promoters,13 and countries. This system eventually became CI’s Voluntary Disclosure
        Analysis Capability and is used for data mining to identify banks, financial institutions,
        promoters, and other professionals that have helped taxpayers hide income, assets, and
        foreign accounts overseas. Data gathered will be used to further the IRS’s understanding
        of how foreign accounts and foreign entities are promoted to U.S. taxpayers as ways to
        avoid or evade tax, as well as to develop additional strategies to inhibit promoters and
        facilitators from soliciting new clients.

The Examination functions successfully overcame obstacles to verify the
voluntary disclosure requests
Due to the high response rate as a result of the 2009 OVDI, the IRS had to rethink its voluntary
disclosure verification process as it was required to absorb more than 55,000 unexpected
high-priority income tax returns into the examination workflow for both the LB&I and SB/SE
Divisions.14 At the time, this absorption constituted an increase of more than 10 percent to the
revenue agent15 workload nationally. To meet the demand, the IRS recognized that it would need
to train additional revenue agents in the subtleties of verifying an offshore voluntary disclosure
case rather than conducting an income tax examination. As a result, revenue agents were
reassigned, workloads were shifted, and training was provided to an additional 708 revenue
agents, managers, attorneys, and other support personnel to augment the 649 employees
previously trained.
The revenue agents, along with OVDI technical advisors and coordinators, were set up in
centralized groups around the country to verify the offshore disclosure information provided by
the taxpayers. Weekly teleconferences were held to ensure that cases, issues, and penalties were
handled in a consistent manner throughout the country. One result of these teleconferences was



12
   See Appendix V for an example of an offshore voluntary disclosure letter.
13
   Individuals who assist taxpayers in setting up elaborate financial schemes to subvert and evade tax laws.
14
   The nearly 14,000 accepted offshore voluntary disclosure requests translated into nearly 11,000 accepted cases
consisting of 55,501 income tax returns that needed verification.
15
   Employees in the Examination function that conduct face-to-face examinations of more complex tax returns such
as businesses, partnerships, corporations, and specialty taxes (e.g., excise tax returns).
                                                                                                          Page 6
                      The 2009 Offshore Voluntary Disclosure Initiative Increased
                      Taxpayer Compliance, but Some Improvements Are Needed



the identification of the Passive Foreign Investment Company (PFIC)16 issue. As a result, the
Office of Chief Counsel was able to quickly act on this information, develop a solution related to
PFIC income, and issue advice to the revenue agents on how to treat PFIC income reported
under the disclosure, thereby ensuring consistent treatment of taxpayers with these types of
issues.
An additional obstacle the IRS faced was how to process 6 or more years of income tax returns,
many with barred statutes. In order to permit the review of these taxpayer cases, the IRS needed
to create closing agreements tailored to each specific case that involved verifying amended tax
returns, newly filed delinquent tax returns, and taxpayer documents. In spite of these obstacles,
as of March 2011, the IRS has completed verification of 3,637 cases that included 18,494 tax
returns involving additional revenues of approximately $784 million including tax, penalties, and
interest. The IRS expects to complete the verifications for the remaining 37,007 income tax
returns involving 6,985 accepted cases by October 2011.
A key accomplishment of the 2009 OVDI was bringing thousands of U.S. taxpayers back into
compliance by requiring them to properly report and pay their taxes on their offshore accounts.
In addition, these taxpayers are also required to continue to properly disclose this income when
submitting future income tax returns. In a speech on November 16, 2010, the IRS Commissioner
stated:
         We are finding that many of these voluntary disclosure cases involve significant amounts
         of previously unpaid tax. Account sizes and taxes vary considerably from case to case,
         but the closed cases so far have averaged more than $200,000 in tax collections per case,
         which includes back taxes, interest and penalties. But collecting additional revenue for
         past misdeeds is not the only important consideration here — regardless of account size,
         it is important that we are bringing thousands of U.S. taxpayers back into the system so
         they properly report and pay their taxes for years to come on their offshore accounts.
On March 1, 2011, the IRS Commissioner reiterated this point in his written testimony before the
House Appropriations Committee Subcommittee on Financial Services and General Government
by stating:
         However, collecting such substantial additional revenue for past misdeeds is not the only
         important consideration here. Regardless of dollar size, it is important that we are
         bringing thousands of US taxpayers back into the system so they properly report and pay
         their taxes for years to come on their offshore accounts.

16
  A PFIC is a foreign investment company or mutual fund whose gross income is 75 percent or more from passive
sources or holds at least 50 percent of its assets for the production of passive income. U.S. shareholders of a PFIC
can elect to be taxed currently on their share of the PFIC’s capital gains and ordinary income, or the shareholders
can choose to defer U.S. taxation until the PFIC distributes income or the shareholder disposes of the PFIC stock.
The economic benefit of deferral is eliminated in the latter case by taxing the shareholder using the highest tax rate
in effect in the years in which the income was accumulated and charging interest on the tax over the deferral period.
                                                                                                              Page 7
                      The 2009 Offshore Voluntary Disclosure Initiative Increased
                      Taxpayer Compliance, but Some Improvements Are Needed



While the actual impact on the U.S. international Tax Gap17 is unknown, it appears the
2009 OVDI is having an immediate financial impact. However, the true impact of the OVDI
may not be measurable for years as the information and intelligence derived from it may spawn
future criminal and civil income tax investigations of banks, financial institutions, and tax haven
promoters. In this respect, we found some improvements to the voluntary disclosure process are
needed to ensure future taxpayer compliance.

A Majority of Tax Practitioners Participating in the 2009 Offshore
Voluntary Disclosure Initiative Believed Taxpayers Were Treated in a
Fair and Consistent Manner
Although the IRS overcame numerous obstacles to assist taxpayers, two prominent tax
practitioners in a widely circulated article criticized the IRS for the voluminous paperwork
required for this Initiative.18 To determine if this negative publicity was warranted and if tax
practitioners believed the IRS properly verified cases, we conducted a survey of tax practitioners
that were on record with the IRS as having Power of Attorney for the taxpayers involved in the
2009 OVDI.19
The survey was conducted between May and June 2011. We selected a random sample of
212 tax practitioners from a universe of 3,319 tax practitioners participating in the 2009 OVDI
because we were targeting a 90 percent confidence interval with a random error rate of
± 5.5 percent. We received 68 responses20 (32 percent) and recomputed our random error rate to
be ± 10 percent.
Based on our survey, tax practitioners generally viewed the program as positive, and their
responses to our survey appeared to refute some of the negative anecdotal information appearing
in these tax articles. Specifically:
     •   Nearly 77 percent of the respondents agreed that their clients were treated in a fair and
         consistent manner throughout the OVDI process.
     •   Nearly 74 percent of the respondents agreed that the back taxes, interest, and penalties
         assessed to their clients were generally consistent with the IRS Penalty Framework for
         the 2009 OVDI.

17
   The Tax Gap is the estimated difference between the amount of tax that taxpayers should pay and the amount that
is paid voluntarily and on time.
18
   Mark E. Mathews and Scott D. Michel, “Tax Evasion: IRS’s Voluntary Disclosure Program for Offshore
Accounts: A Critical Assessment after One Year,” BNA Daily Tax Report, September 21, 2010.
19
   See Appendix IV for the detailed results of our survey.
20
   The low response rate suggests a high risk that the results could be affected by a no-response bias. For surveys of
this type, it is generally assumed that dissatisfied people are more motivated to take the survey than satisfied people.
Although it is not possible to ascertain, it is more likely than not that the full population of practitioners are more
favorable about the initiative than is reflected by these figures.
                                                                                                                Page 8
                        The 2009 Offshore Voluntary Disclosure Initiative Increased
                        Taxpayer Compliance, but Some Improvements Are Needed



       •   Nearly 68 percent of the respondents agreed that the OVDI process is working
           appropriately.
The survey results tend to refute the “voluminous paperwork” criticism. Specifically:
       •   More than 79 percent of tax practitioner respondents believed the initial taxpayer
           information requested by the IRS was necessary to adequately assess back taxes, interest,
           and penalties owed.
       •   Nearly 62 percent of tax practitioner respondents indicated that a new Power of Attorney
           and Declaration of Representation (Form 2848) was requested from the taxpayer after the
           case was transferred to the Examination function. In addition, approximately 40 percent
           of the tax practitioners found the request burdensome, while 41 percent did not find it
           burdensome.
       •   Nearly 81 percent of tax practitioner respondents indicated that a Consent to Extend the
           Time to Assess Tax (Form 872) was requested from their client, and nearly 56 percent
           did not believe it was burdensome to their clients.

Additional Oversight Is Needed to Ensure Information Obtained From
Voluntary Disclosures Is Accurate and Complete
As stated in the U.S. Government Accountability Office’s Standards for Internal Controls in the
Federal Government, “Internal controls are a major part of managing an organization. They are
comprised of the plans, methods, and procedures used to meet the missions, goals, and objectives
of an organization; as well as supports performance-based management.” During our review, we
found three issues regarding the processing of future voluntary disclosures which we believe
warrant management’s attention in order to protect the Federal Government’s interest.

A requirement for taxpayers to reconcile unreported income to their tax returns is
needed for proper verification
As part of the voluntary disclosure verification process, revenue agents are required to certify
that the taxpayer’s amended or newly filed delinquent tax returns are complete and accurate.21
To determine if revenue agents properly verified this information before accepting the voluntary
disclosures, we selected and reviewed documentation from a judgmental sample of 60 closed
voluntary disclosure cases. In 18 of these cases, there was no evidence of a reconciliation of
unreported income in the offshore accounts to the schedule and line item on the amended or
newly filed delinquent income tax returns submitted by the taxpayer.



21
     See Appendix VII for a description of the revenue agent’s verification process.
                                                                                              Page 9
                  The 2009 Offshore Voluntary Disclosure Initiative Increased
                  Taxpayer Compliance, but Some Improvements Are Needed



Although taxpayers and their representatives may find preparing such reconciliations
burdensome, this information is necessary to ensure all transactions and exchange rates used by
taxpayers are properly reported on their tax returns. Without this reconciliation, revenue agents
cannot certify that taxpayers are in full compliance with their agreement. Although revenue
agents are encouraged to obtain this information from the taxpayers, it is not required as part of
the information document request process. Requiring this information prior to entering into a
voluntary disclosure agreement would ensure taxpayers are fully disclosing all unreported
income.

Procedures are needed to ensure closing agreements obtained from taxpayers
have not been altered
Once the revenue agent determines that the amended or newly filed delinquent tax returns are
complete and accurate, the next step is to compute the tax and penalties in preparation of
completing the Closing Agreement on Final Determination Covering Specific Matters
(Form 906). OVDI closing agreement procedures provided to revenue agents recommend:
       Print the closing agreements on IRS watermarked paper or place your initials in blue ink
       on the lower-right corner on the back of each page of the closing agreements to insure
       that the closing agreements you receive back from the taxpayer or representative are the
       same agreements you sent to the taxpayer or representative.
Our review of 60 closed voluntary disclosure cases showed 31 of the cases had the Forms 906
returned by the taxpayers. However, the Form 906 was neither printed on IRS watermarked
paper nor initialed by the revenue agent on the lower-right corner on the back of each page.
Using watermarked paper or initialing each page of the agreement provides assurance to the
validity of the document contents returned to the IRS for processing by providing reasonable
assurance that no alterations were made to the original agreement. Although this procedure is
recommended, it is not an existing requirement. Not ensuring the integrity of the closing
agreement could result in taxpayers intentionally altering these documents for their own financial
benefit.




                                                                                           Page 10
                     The 2009 Offshore Voluntary Disclosure Initiative Increased
                     Taxpayer Compliance, but Some Improvements Are Needed



Data mining efforts could be hampered if information is not accurately
transcribed during verifications
IRS officials described that the data gathering systems used for examinations (i.e., the Audit
Information Management System22 and the Examination Return Control System(ERCS))23 are
not set up to capture all information obtained from the voluntary disclosure agreements. As a
result, the IRS established the E-Trak Offshore Voluntary Disclosure Program system for the
2009 OVDI to control, monitor, and evaluate the success of the effort.
One of the important aspects of the system is that it allows the IRS to capture data related to
banks, financial institutions, and tax haven promoters, as well as any tax professionals who
assisted taxpayers during the voluntary disclosure process. Revenue agents working voluntary
disclosure cases are instructed to update the E-Trak Offshore Voluntary Disclosure Program
system during the entire review process and provide all necessary information before closing the
cases.
However, our review found that, in 28 of 60 closed voluntary disclosure cases, financial
accounts, promoter, and/or professional information was either not captured or incorrectly
entered by revenue agents on the E-Trak Offshore Voluntary Disclosure Program system. There
are no existing quality review procedures in place to ensure that the information is accurately
captured in the system before the cases are sent to storage. The U.S. Government Accountability
Office’s Standards for Internal Controls in the Federal Government states, “Internal control and
all transactions and other significant events need to be clearly documented, and the
documentation should be readily available for examination. All documentation and records
should be properly managed and maintained.”
Complete and accurate electronic information is essential for future data mining efforts to
identify patterns or trends of noncompliance. In a November 16, 2010, speech, the IRS
Commissioner underscored the importance of these data by stating:
        The VDP and UBS24 matters are significant, but there is obviously more to come. We
        have been scouring the vast quantity of data we received from the VDP applicants and
        from various other sources. Although more data mining is still to be done, this

22
   The Audit Information Management System is a computer system used by the IRS Examination functions to
control returns, input assessments/adjustments to the Master File, and provide management reports. The Master File
is the IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
23
   The ERCS is an automated inventory management system used to requisition tax returns, assign returns to
examiners, change codes such as status and project codes, and charge time. The ERCS can be used to control work
that is not controlled on the Audit Information Management System, such as preparer penalties. The ERCS also
provides real-time information in the form of screens and reports for management of the SB/SE and the LB&I
Divisions.
24
   A Swiss global financial services company which provides investment banking, asset management, and wealth
management services to clients worldwide.
                                                                                                         Page 11
                  The 2009 Offshore Voluntary Disclosure Initiative Increased
                  Taxpayer Compliance, but Some Improvements Are Needed



       information has already proved invaluable in supplementing and corroborating prior
       leads, as well as developing new leads, involving numerous banks, advisors and
       promoters around the world.
Without sufficient and complete information, the IRS may miss opportunities to identify
additional taxpayers and promoters who continue to defraud the Federal Government with their
offshore activities.

Recommendations
Recommendation 1: The Commissioner, LB&I Division, should require taxpayers or their
representatives to prepare a reconciliation of all unreported income from offshore accounts to the
schedule and line item on the amended or newly filed delinquent income tax returns as part of
the voluntary disclosure agreement process.
       Management’s Response: IRS management agreed with this recommendation and
       stated that this is already a requirement of the 2011 OVDI that was announced on
       February 8, 2011. In addition, examiners reviewing OVDI applications are required to
       verify the correctness of amended returns. The IRS believes the additional taxpayer
       submission requirements of the 2011 OVDI and the continuing requirement that
       examiners verify the amounts on amended returns are sufficient safeguards to ensure that
       taxpayers are fully disclosing all unreported income.
The Commissioner, LB&I Division, and the Commissioner, SB/SE Division, should:
Recommendation 2: Require revenue agents to initial the lower-right corner on the back of
each page of the Form 906 before sending it to the taxpayer for signature.
       Management’s Response: IRS management did not agree with this
       recommendation. Their experience is that taxpayers and representatives rarely make
       hidden changes to documents prior to signing and returning them to the IRS for
       execution. Specifically, with regard to OVDI closing agreements, the IRS has not
       encountered a single closing agreement where the taxpayer or representative has altered
       an agreement before returning it. The IRS already recommends the initialing as a best
       practice to make it easy for reviewers to verify the original was signed; however, this is
       just one of several methods available to verify validity of the closing agreement. SB/SE
       Technical Services performs a second-level review of all taxpayer signed closing
       agreements. Therefore, the IRS does not believe it is a good idea to make the practice a
       requirement, because it will result in perfectly good closing agreements being returned to
       taxpayers for reexecution as taxpayers often sign and return photocopies of Form 906.
       The IRS believes there is an adequate review process in place to ensure the accuracy of
       closing agreements.


                                                                                          Page 12
                  The 2009 Offshore Voluntary Disclosure Initiative Increased
                  Taxpayer Compliance, but Some Improvements Are Needed



       Office of Audit Comments: After considering IRS management’s response, we agree
       with their rationale and do not have any concerns with their disagreement.
Recommendation 3: Develop a quality review process to ensure that all taxpayer data
relating to financial accounts, promoters, and professional information involving voluntary
disclosures are properly transcribed into the E-Trak Offshore Voluntary Disclosure Program
system.
       Management’s Response: IRS management agreed with this recommendation and
       plans to implement procedures to conduct a 100 percent review of inputs to the E-Trak
       Offshore Voluntary Disclosure Program system.




                                                                                        Page 13
                      The 2009 Offshore Voluntary Disclosure Initiative Increased
                      Taxpayer Compliance, but Some Improvements Are Needed



                                                                                                  Appendix I

        Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine whether the IRS’s voluntary disclosure practices were
effective especially with the high volume of cases received, and to determine whether all cases
have been appropriately assigned and worked. Specifically, we determined whether:
1) voluntary disclosure requests were properly evaluated and accepted by CI, 2) accepted
voluntary disclosures were properly verified by the IRS’s Examination functions, and
3) information obtained from the VDP was accurately captured for future use. To accomplish
these objectives, we:
I.      Determined whether voluntary disclosure requests submitted by taxpayers were properly
        evaluated by CI.
        A. Obtained an extract from the Criminal Investigation Management Information
           System.1 We selected a random sample of 106 voluntary disclosure requests from a
           universe of 14,908 requests closed in FY 2010. We requested the supporting
           electronic case files for the 106 voluntary disclosure requests from CI, which was
           able to provide us 104 completed case files for review.
II.     Determined that accepted voluntary disclosures were properly verified by the IRS’s
        Examination functions.
        A. Selected a judgmental sample of 60 closed verifications cases, 30 each from the IRS
           Campuses2 in Covington, Kentucky, and Memphis, Tennessee. A judgmental sample
           was used because the voluntary disclosure cases were still in process at the time of
           our review and a scientific sample was not practical because the total population of
           cases was still changing as cases were being put into process. The cases were
           reviewed against the criteria found in the Offshore Voluntary Disclosure Practice Job
           Aids found on the OVDI SharePoint site.
        B. Obtained a list from the IRS of 3,319 tax practitioners who participated in the
           2009 OVDI. Using a confidence interval of 90 percent, an expected error rate of
           5.5 percent, and precision rate of ±50 percent, we selected and surveyed a random



1
  The Criminal Investigation Management Information System is a database that tracks the status and progress of
criminal investigations and time expended by special agents. It is also used as a management tool that provides the
basis for decision of both local and national scope.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 14
                     The 2009 Offshore Voluntary Disclosure Initiative Increased
                     Taxpayer Compliance, but Some Improvements Are Needed



             sample of 212 tax practitioners to obtain their opinions of the OVDI. The survey was
             conducted between May 27 and June 29, 2011.
        C. Using computer data analysis of the Criminal Investigation Management Information
           System, the Audit Information Management System,3 the ERCS,4 and the Master File5
           for FYs 2008 to 2010, compared the number of voluntary disclosure requests
           accepted by CI each year; the number of voluntary disclosure requests completed and
           ongoing; and the return, in the form of tax assessment, interest, and penalties, on
           completed verifications. To validate these data, we compared the data to other IRS
           databases residing at the Treasury Inspector General for Tax Administration Data
           Center Warehouse6 that included the Audit Information Management System, the
           ERCS, and the Master File.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: IRS policies, procedures, and practices
for evaluating, verifying, and accepting voluntary disclosures. We evaluated these controls by
reviewing source materials, interviewing management, surveying tax practitioners, and
reviewing voluntary disclosure requests and closed verifications cases.




3
  A computer system used by the IRS Examination functions to control returns, input assessments/adjustments to the
Master File, and provide management reports.
4
  An automated inventory management system used to requisition tax returns, assign returns to examiners, change
codes such as status and project codes, and charge time. The ERCS can be used to control work that is not
controlled on the Audit Information Management System, such as preparer penalties. The ERCS also provides
real-time information in the form of screens and reports for management of the SB/SE and the LB&I Divisions.
5
  The IRS database that stores various types of taxpayer account information. The database includes individual,
business, and employee plan and exempt organization data.
6
  The Data Center Warehouse provides data and data access services; centralizes storage, security, and
administration of files; and develops uniform and user-friendly interfaces for users to access data.
                                                                                                         Page 15
                 The 2009 Offshore Voluntary Disclosure Initiative Increased
                 Taxpayer Compliance, but Some Improvements Are Needed



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Amy L. Coleman, Audit Manager
Carole Connolly, Acting Audit Manager
Earl Charles Burney, Lead Auditor
Paul Baker, Senior Auditor
Melvin Thomas, Senior Evaluator




                                                                                      Page 16
                 The 2009 Offshore Voluntary Disclosure Initiative Increased
                 Taxpayer Compliance, but Some Improvements Are Needed



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
Chief, Criminal Investigation SE:CI
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner (International) United States Competent Authority, Large Business and
International Division SE:LB:IN
Deputy Commissioner (Operations), Large Business and International Division SE:LB
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Division Counsel/Associate Chief Counsel (Criminal Tax) CC:CT
Division Counsel/Associate Chief Counsel (Large Business and International) CC:LB&I
Division Counsel/Associate Chief Counsel (Small Business/Self-Employed) CC:SB
Associate Chief Counsel (International) CC:INTL
Associate Chief Counsel (Procedure and Administration) CC:P&A
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, International Individual Compliance, Large Business and International Division
SE:LB:IN
Director, Operations Policy and Support SE:CI:OPS
Director, Pre-Filing and Technical Guidance, Large Business and International Division
SE:LB:PFTG
Director, Global Financial Crimes SE:CI:OPS:GFC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
        Chief Counsel CC
        Deputy Commissioner for Services and Enforcement SE
        Chief, Criminal Investigation SE:CI
        Commissioner, Large Business and International Division SE:LB
        Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 17
                  The 2009 Offshore Voluntary Disclosure Initiative Increased
                  Taxpayer Compliance, but Some Improvements Are Needed



                                                                                Appendix IV

          Results of the Survey of Tax Practitioners

The following questions were included in a survey conducted by the Treasury Inspector General
for Tax Administration. The surveys were mailed to 212 tax practitioners who represented
taxpayers during the 2009 OVDI. The survey was conducted between May 27 and
June 29, 2011. A total of 68 tax practitioners responded to the survey. The percentages reflected
in the survey responses may not always equal 100 percent due to rounding.

          TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                    VOLUNTARY DISCLOSURE PROGRAM
                      PRACTITIONER QUESTIONNAIRE

   1. What is your profession (you may select more than one answer for this question)?

        Number of Responses                   Practitioner Answers              Percentage
                  31               Attorney                                           45.6
                   2               Attorney/Certified Public Accountant                2.9
                   1               Attorney/Public Accountant                          1.5
                  26               Certified Public Accountant                        38.2
                                   Certified Public Accountant/Enrolled
                   1                                                                    1.5
                                   Agent/Public Accountant
                   3               Enrolled Agent                                       4.4
                   1               Public Accountant                                    1.5
                   2               Other                                                2.9
                   1               No response                                          1.5


   2. How many years have you been in practice?

        Number of Responses                   Practitioner Answers              Percentage
                   5               0 to 5 Years                                        7.4
                   4               6 to 10 Years                                       5.9
                  14               11 to 20 Years                                     20.6
                  44               Over 20 Years                                      64.7
                   1               No response                                         1.5


                                                                                         Page 18
             The 2009 Offshore Voluntary Disclosure Initiative Increased
             Taxpayer Compliance, but Some Improvements Are Needed



3. Are you or your firm currently representing any clients for the 2011 OVDI that
   began on February 8, 2011?

    Number of Responses                 Practitioner Answers               Percentage
             28               Yes                                               41.2
             40               No                                                58.8


4. Prior to the 2009 OVDI that began on March 23, 2009, have you or your firm ever
   represented any taxpayers requesting consideration under the IRS’s VDP?

    Number of Responses                 Practitioner Answers               Percentage
             21               Yes                                               30.9
             47               No                                                69.1


5. Select the choice that best describes what you believe to be the purpose of the OVDI.

    Number of Responses                 Practitioner Answers               Percentage
             51               The purpose of the OVDI is to permit              75.0
                              taxpayers to profess to the IRS about
                              previously underreported foreign earned
                              income; provided the taxpayer’s
                              disclosure is truthful, timely, and
                              complete and in exchange the IRS will not
                              recommend criminal prosecution.
             12               The purpose of the OVDI is to permit              17.6
                              taxpayers to admit to a tax problem, pay a
                              fine, and reenter the tax system as
                              compliant taxpayers.
              1               The OVDI is a tax amnesty without                   1.5
                              financial penalties or fines.
              1               I do not know the purpose of the OVDI.              1.5
              3               Other                                               4.4




                                                                                   Page 19
             The 2009 Offshore Voluntary Disclosure Initiative Increased
             Taxpayer Compliance, but Some Improvements Are Needed



6. Were you familiar with the OVDI filing requirements prior to submitting your
   client’s request to IRS CI?

    Number of Responses               Practitioner Answers           Percentage
             45             Yes                                            66.2
             23             No                                             33.8


7. How many taxpayers did you or your firm represent during the 2009 OVDI that
   was announced on March 23, 2009?

    Number of Responses               Practitioner Answers           Percentage
             53             1 to 5                                         77.9
              1             6 to 10                                         1.5
              5             11 to 20                                        7.4
              4             More than 20                                    5.9
              5             No response                                     7.4


8. How many of the 2009 OVDI client requests that you or your firm represented were
   initially accepted by the IRS?

    Number of Responses               Practitioner Answers           Percentage
             58             All (100 percent)                              85.3
              2             90 to 99 percent                                2.9
              1             80 to 89 percent                                1.5
              0             70 to 79 percent                                0.0
              0             60 to 69 percent                                0.0
              1             50 to 59 percent                                1.5
              0             Less than 50 percent                            0.0
              6             No response                                     8.8




                                                                             Page 20
             The 2009 Offshore Voluntary Disclosure Initiative Increased
             Taxpayer Compliance, but Some Improvements Are Needed



9. For any client OVDI requests that were rejected by the IRS, please choose the
   factors below that best describe the reasons given by the IRS for rejecting them (you
   may select more than one answer for this questions).

    Number of Responses                 Practitioner Answers            Percentage
              0               Truthfulness                                     0.0
              4               Timeliness                                       5.9
              0               Completeness                                     0.0
              0               Reason was not provided                          0.0
              5               Other                                            7.4
             59               No response                                     86.8

10. Did you access IRS.gov to find information on the VDP?

    Number of Responses                 Practitioner Answers            Percentage
             65               Yes                                             95.6
              3               No (If you responded no, please skip to          4.4
                              Question #13)


11. Was the VDP information found on IRS.gov helpful to you?

    Number of Responses                 Practitioner Answers            Percentage
             64               Yes                                             94.1
              1               No                                               1.5
              3               No response                                      4.4


12. Do you think that a webpage on IRS.gov that centralized all the VDP information,
    including the Internal Revenue Manual, news releases, and frequently asked
    questions would be helpful?

    Number of Responses                 Practitioner Answers            Percentage
             63               Yes                                             92.6
              2               No                                               2.9
              3               No Response                                      4.4



                                                                                Page 21
             The 2009 Offshore Voluntary Disclosure Initiative Increased
             Taxpayer Compliance, but Some Improvements Are Needed



13. Do you think that the initial taxpayer information requested by the IRS on the
    Information Document Request (Form 4564) was necessary for them to adequately
    assess back taxes, interest, and penalties owed to the U.S. Government?

    Number of Responses                 Practitioner Answers             Percentage
             54               Yes                                              79.4
             12               No                                               17.6
              2               No Response                                       2.9

14. Once the OVDI request was transferred from IRS CI to one of the Examination
    functions for verification, was a new Power of Attorney and Declaration of
    Representative (Form 2848) requested from the taxpayer?

    Number of Responses                 Practitioner Answers             Percentage
             42               Yes                                              61.8
             20               No                                               29.4
              6               No response                                       8.8

15. Do you feel it was burdensome to the taxpayer that the IRS Examination function
    requested a revised power of attorney to protect both the taxpayer’s and the U.S.
    Government’s interests?

    Number of Responses                 Practitioner Answers             Percentage
             27               Yes                                              39.7
             28               No                                               41.2
             13               No response                                      19.1

16. Once the OVDI request was transferred from IRS CI to one of the Examination
    functions, was a Consent to Extend the Time to Assess Tax (Form 872) requested
    from the taxpayer to extend the assessment statute of limitations on 1 or more tax
    years?

    Number of Responses                 Practitioner Answers             Percentage
             55               Yes                                              80.9
              8               No                                               11.8
              5               No response                                       7.4


                                                                                 Page 22
              The 2009 Offshore Voluntary Disclosure Initiative Increased
              Taxpayer Compliance, but Some Improvements Are Needed



17. Do you feel it was burdensome to your client(s) that the IRS requested consents to
    extend the assessment statute of limitations for open tax years in the event that the
    taxpayer did not complete the OVDI process?

    Number of Responses                   Practitioner Answers             Percentage
              23               Yes                                                33.8
              38               No                                                 55.9
               7               No response                                        10.3


18. Do you feel that the back taxes, interest, and penalties assessed to your client(s) were
    generally consistent with the IRS Penalty Framework to Voluntary Disclosure
    Requests Regarding Unreported Offshore Accounts and Entities?

    Number of Responses                   Practitioner Answers             Percentage
              50               Yes                                                73.5
              14               No                                                 20.6
               4               No response                                         5.9


19. Do you feel your client(s) were treated in a fair and consistent manner throughout
    the OVDI process?

    Number of Responses                   Practitioner Answers             Percentage
              52               Yes                                                76.5
              14               No                                                 20.6
               2               No Response                                         2.9


20. Do you feel the OVDI process is working appropriately?

    Number of Responses                   Practitioner Answers             Percentage
              46               Yes                                                67.6
              19               No                                                 27.9
               3               No response                                         4.4




                                                                                    Page 23
           The 2009 Offshore Voluntary Disclosure Initiative Increased
           Taxpayer Compliance, but Some Improvements Are Needed



                                                                                                Appendix V

       Offshore Voluntary Disclosure Letter

                         Offshore Voluntary Disclosures – Optional Format

          If taxpayer has domestic issues only, please have them contact their local Criminal
                       Investigation office for a traditional voluntary disclosure.



                                                             <DATE>



         Internal Revenue Service
         Criminal Investigation
         ATTN: Voluntary Disclosure Coordinator
         <CITY Field Office>
         <Address>
         <CITY, ST ZIP CODE>



                                                                      Re: Taxpayer Name
                                                                          Tax Identification Number
                                                                          Taxpayer Date of Birth
                                                                          Taxpayer Address

         Dear Voluntary Disclosure Coordinator:

         To assist in a timely determination of my acceptance into the Voluntary Disclosure
         Program, (for Voluntary Disclosures involving offshore accounts or assets), I have
         addressed all of the following items:

            • Please include your:
                 o Complete name:
                 o Social Security Number:
                 o DOB:
                 o Address:
                 o Passport Number (and Country):
                 o Current Occupation


            • Taxpayer Representative and his/her contact information.

            • Explain the source of the funds.


                                                 Revised 07-28-2009


Source: LB&I Offshore Compliance Initiative Program Management.
                                                                                                      Page 24
          The 2009 Offshore Voluntary Disclosure Initiative Increased
          Taxpayer Compliance, but Some Improvements Are Needed




         • Disclose if you or any related entities are currently under audit or criminal
           investigation by the Internal Revenue Service or any other law enforcement
           authority.

              o    Has the IRS notified you that it intends to commence an examination or
                   investigation? Yes No

              o    Are you under criminal investigation by any law enforcement authority?
                   Yes No

              o    If yes, please explain.


         • Do you believe that the IRS has obtained information concerning your
           tax liability? Yes No

              o    If yes, please specify.


         • Please check the box to estimate the annual range of the highest aggregate value
           of your offshore accounts/assets.

      Highest Aggregate
     Account/Asset Value             2003          2004            2005    2006            2007   2008
$0 to $100,000
$100,000 to $1,000,000
$1,000,000 to $2,500,000
$2,500,000 to $10,000,000
Greater than $10,000,000
Greater than $100,000,000



         • Please check the box to estimate the potential total unreported income from the
           offshore account(s) during each disclosure period. If known, please enter exact
           amounts/assets.

     Estimated Total
   Unreported Income                 2003          2004            2005    2006            2007   2008
$0 to $100,000
$100,000 to $1,000,000
$1,000,000 to $2,500,000
$2,500,000 to $10,000,000
Greater than $10,000,000
                                              Revised 07-28-2009




                                                                                                     Page 25
              The 2009 Offshore Voluntary Disclosure Initiative Increased
              Taxpayer Compliance, but Some Improvements Are Needed




   •   For accounts or assets where you have control or are a beneficial owner of the
       account or asset, list any and all financial institutions and the country where
       the institution is located. For accounts, please also list the dates the accounts were
       opened and/or closed. Provide your point of contact at each financial institution.


   •   Explain the purpose for establishing the offshore account or assets. For example:
       Holocaust Compensation or Restitution; inherited account; account established
       prior to World War II, etc.; if tax non-compliance – please explain.


   •   List each person or entity affiliated with the account, their formal structure (i.e., if
       a corporation, foundation, or trust), and the nature of their relationship to the
       account (i.e. owner, power of attorney, parent entity of corporate account holder,
       etc.).


   •   Explain all face to face meetings, and any other communications you had
       regarding the accounts or assets with the financial institution(s). Also include
       face to face meetings or communications regarding the accounts or assets with
       independent advisors/investment managers not from the financial institution(s)
       where the funds are held. Provide the names, locations and dates of these
       meetings and/or communications.


To be included with all letters:
By signing this document, I certify that I am willing to continue to cooperate with the
Internal Revenue Service, including in assessing my income tax liabilities and making
good faith arrangements to pay all taxes, interest, and penalties associated with this
voluntary disclosure.

Under penalties of perjury, I declare that I have examined this document and
accompanying statements, and to the best of my knowledge and belief, they are true,
correct, and complete.



Signature of Taxpayer                    Print Name                                 Date


IRS reserves the right to make further contacts with the taxpayer to clarify his/her
submission.




                                                   Revised 07-28-2009




                                                                                                  Page 26
                       The 2009 Offshore Voluntary Disclosure Initiative Increased
                       Taxpayer Compliance, but Some Improvements Are Needed



                                                                                                    Appendix VI

    2009 Offshore Voluntary Disclosure Initiative Steps

                           CI evaluates taxpayer’s voluntary                            CI may initiate a criminal
                                  disclosure request.             Declines            investigation or other action.


                                        Accepts

                          Philadelphia Offshore Identification
                          Unit assembles case file, establishes
                           case on IRS tracking systems, and
                              ships to Verification Group.              Taxpayer fails to
                                                                        cooperate during
                                                                        certification as
                                                                        required under
                                                                        terms of the VDP.
                          Case assigned to revenue agent who
                            conducts certification to assess
                           accuracy and completeness of the
                              voluntary disclosure. (See
                                    Appendix VII)
Returned
for more
work.

                           Case receives informal review by
                           group manager or OVDI technical
                                       advisor.
                                                                                 Returned
                                       Approve
                                                                                 for more
                                                                                 work.
                          Technical Services Group conducts
                          a mandatory review of the voluntary
                             disclosure case. If the reviewer
                          approves, he/she signs and dates the
                           closing agreement as the reviewing
                                         officer.

                                       Approve

                           Technical Services Group Manager
                           executes closing agreement for the
                                                                                     Centralized Case Processing
                           IRS Commissioner and sends copy
                                                                                  assesses voluntary disclosure case.
                          to taxpayer concluding the voluntary
                                       disclosure.

     Source: Our analysis of Internal Revenue Manual Section 9.5.11.9 Voluntary Disclosure Practice,
     2009 Offshore Voluntary Disclosure Program Job Aids, and other documentation.
                                                                                                                 Page 27
                              The 2009 Offshore Voluntary Disclosure Initiative Increased
                              Taxpayer Compliance, but Some Improvements Are Needed



                                                                                                                   Appendix VII

                         Revenue Agent Voluntary Disclosure
                               Verification Activities

                                             Revenue Agent                                                         Taxpayer and/or
 The revenue agent reviews case file, notifies taxpayer of assignment to the case, and requests the following
                                                                                                                      Power of
 information if not already in the case file:                                                                         Attorney
   • Copies of all previously filed returns.
   • Correct amended or newly filed delinquent income tax, payroll tax, estate tax, and other affected returns.
                                                                                                                          Taxpayer or
   • Corrected amended or newly filed delinquent information returns.
                                                                                                                      Power of Attorney
   • Corrected amended or newly filed delinquent Report of Foreign Bank and Financial Accounts.                         sends requested
   • Copies of bank statements for all foreign bank accounts.                                                          documents to the
   • Valuations of assets held by all foreign corporations, trusts, or other entities owned or controlled by the         revenue agent.
     taxpayer.
   • Valuation of all foreign income-producing assets owned or controlled by the taxpayer.
   • Any other information the revenue agent requires to evaluate the accuracy and completeness of the
     taxpayer’s voluntary disclosure.




 The revenue agent evaluates the voluntary disclosure, as reflected on amended or newly filed delinquent tax
 returns, against the offshore financial records to determine that it is accurate and complete.




 The revenue agent computes the miscellaneous offshore penalty and completes the Assessment and
 Abatement of Miscellaneous Penalties (Form 8278).




 The revenue agent prepares the Income Tax Discrepancy Adjustments (Form 4549-A) for each tax year in
 the voluntary disclosure.




 The revenue agent selects the one of four pro forma closing agreements approved by the IRS Office of Chief              Taxpayer or
 Counsel. The revenue agent then revises the closing agreement based on the facts and circumstances of the                Power of
 case and the computation reflected on Form 4549-A. The revenue agent is required to obtain approval of an             Attorney signs
 OVDI technical advisor if he or she deviates from applying the 20 percent miscellaneous offshore penalty, or            the closing
 needs special language for the agreement or a special situation as described in the Closing Agreement                 agreement and
 Procedures Job Aid. The revenue agent completes the Closing Agreement on Final Determination Covering                 returns it to the
 Specific Matters (Form 906). The revenue agent then sends a completed and approved closing agreement to                    IRS.
 the taxpayer for his or her signature.



 The revenue agent receives, signs, and dates the closing agreement as the receiving officer and then forwards
 the completed case to the group manager.

Source: Our analysis of Offshore Voluntary Disclosure Practice Job Aids 1 through 10.
                                                                                                                             Page 28
     The 2009 Offshore Voluntary Disclosure Initiative Increased
     Taxpayer Compliance, but Some Improvements Are Needed



                                                    Appendix VIII

Management’s Response to the Draft Report




                                                            Page 29
The 2009 Offshore Voluntary Disclosure Initiative Increased
Taxpayer Compliance, but Some Improvements Are Needed




                                                       Page 30
The 2009 Offshore Voluntary Disclosure Initiative Increased
Taxpayer Compliance, but Some Improvements Are Needed




                                                       Page 31
The 2009 Offshore Voluntary Disclosure Initiative Increased
Taxpayer Compliance, but Some Improvements Are Needed




                                                       Page 32
The 2009 Offshore Voluntary Disclosure Initiative Increased
Taxpayer Compliance, but Some Improvements Are Needed




                                                       Page 33
